 

2311 Douglas Street

C@OQCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

DAVID MCMAHON AND THE TEXAS DIVISION, SONS
OF CONFEDERATE VETERANS, INCORPORATED,
RICHARD BREWER, TEXAS DIVISION, SONS
OF CONFEDERATE VETERANS, INCORPORATED,

Petitioners,

v.

PRESIDENT GREGORY L. FENVES, RON NIRENBERG,
ROBERTO TREVINO, WILLIAM SHAW, REBECCA
VIAGRAN, REY SALDANA, SHIRLEY GONZALES,
GREG BROCKHOUSE, ANA SANDOVAL, MANUAL.

PALAEZ, JOHN COURAGE, CLAYTON PERRY,
CITY OF SAN ANTONIO,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 28th day of May, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
WARREN V. NORRED
NORRED LAW, PLLC
515 East Border Street
Arlington, TX'76010
Telephone: 817-704-3984
Facsimile: 817-524-6686
wnorred@norredlaw.com
Attorney for Petitioners

Subscribed and sworn to before me this 28th day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

: GENERAL NOTARY-State of Wsbrasia
RENEE J. GOSS
My Comm. Exp. September 8, 2023

  

ers Onduaw-h, Gale

Affiant

 

    

Notary Public
SERVICE LIST

Heather Gebelin Hacker
Assistant Solicitor General
Office of the Attorney General
209 W. 14" Street

Price Daniels Sr. Building
Austin, TX 78701-1614
512-936-2540
heather.hacker@oag.texas.gov

Deborah Lynne Klein

City Attorney’s Office for the City of San Antonio
18" Floor

100 W. Houston Street

San Antonio, TX 78205-0000

210-207-8919

deborah. klein@sanantonio.gov
